                           OFFICE OF THE INSPECTOR GENERAL
                           CORPORATION FOR NATIONAL AND
                                 COMMUNITY SERVICE




                                         Review of
                    The Corporation for National and Community Service's
                            Network and Computer Security Plan

                                 OIG Audit Report Number 01-34
                                      December 11,2000




                                              Prepared by:

                                           KPMG, LLP
                                        2001 M Street, NW
                                       Washington, DC 20036

                         Under Corporation for National and Community Service
                                     Office of the Inspector General
                                    Purchase Order # 200008020002
                        General Services Administration Contract # GS-23F-8 127H




This report was issued to Corporation management on May 7, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than November 5, 2001, and complete its corrective actions by May 7,2002.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                                                                  CORPORATlON
                           Office of Inspector General
                 Corporation for National and Community Service                   FOR NATIONAL

                                                                                   SERVICE
         Review of the Corporation for National and Community Service's
                       Network and Computer Security Plan
                         OIG Audit Report Number 01-34


OMB Circular A- 130, "Management of Federal Information Resources," requires that
Federal agencies implement and maintain adequate security over information,
information systems, and major applications. The Corporation's Network and Computer
Security Plan includes a description of the Corporation's computer systems, the major
applications, and the security and control procedures in place.

CNS OIG engaged KPMG, LLP to review the plan and to assess the effectiveness of the
security policies and procedures. Their report concludes that the Corporation has met the
requirements of the Circular with two exceptions for which this report includes
recommendations for corrective action. CNS OIG reviewed the report, with which we
concur, the work papers supporting its conclusions, and the Corporation's response to the
report.

In its response, the Corporation agreed with KPMG's recommendation for the first
finding which was to include a summary of the Security Plan in the Corporation's
Strategic Information Risk Management Plan as required by Circular A-130. However,
the Corporation did not agree with the KPMG's second finding - that there is no separate,
specific management authorization for the Internet connection to the Corporation LAN.
KPMG did not change the report because CNS failed to provide documentation on this
matter either during the audit or as part of the response to the report.




                                                                               Inspector General
                                                                               1201 New York Avenue, NW
                                                                               Washington, DC 20525
                                             Review of the
                           Corporation for National and Community Service's
                                 Network and Computer Security Plan
                                           Table of Contents




RESULTS IN BRIEF .......................................................................................................... 1

PROJECT OBJECTIVES .................................................................................................... 1

METHODOLOGY ................................................................................................................. 2

SUMMARY OF NOTIFICATION OF FINDINGS ..................................................................... 3

NEW INFORMATION SECURITY LEGISLATION .................................................................3

APPENDIX A .NOTIFICATION OF FINDINGS .................................................................A- 1

APPENDIX B .LIST OF DOCUMENTS REVIEWED ........................................................ B- 1

APPENDIX C .CORPORATION RESPONSES TO THE DRAFT .........................................                                  C- 1
               2001 M Street, N.W.                                           Telephone 202 467 3000
               Washington, D.C. 20036                                        Fax 202 833 1350




December 11.2000

Inspector General
Corporation for National and Community Service:

At your request, KPMG, LLP (KPMG) performed a Network Security Review on the
Corporation for National Service (the Corporation). The primary purpose of this review was
to:

    -   review the current network security plan and
    -   to assess the effectiveness of computer security policy and procedures


Results in Brief

At the time of the assessment, the Corporation met the requirements of OMB Circular A-1 30,
Management of Federal Information Resources, with two exceptions:

   -    A summary of the Security Plan was not incorporated in the recent Corporation
        Information Management Strategic Plan dated October 19,2000; and

   -    There was no document that specifically gave management authorization for
        interconnection of the Corporation LAN to the Internet.

Neither of these findings has a direct operational impact on information security. But it is
recommended that both of these findings be corrected, because they are good management
practices and are required by OMB Circular A- 130.

Project Objectives

The objective of this project was to assess the effectiveness of the network and computer
security policies and procedures at the Corporation for National and Community Service (the
Corporation) through a review of the Corporation's compliance with OMB Circular A-130,
Management of Federal Information Resources. A review was conducted of policies and
procedures, as documented in the Corporation's Security Plan, and an assessment was
performed of their effectiveness.




                                           Page 1
Methodology

The project included an assessment of the Network Security Plan using OMB Circular A-130
as guidance. OMB Circular A-130 is applicable to all agencies where "the term 'agency'
means any executive department, military department, government corporation, government
controlled corporation, or other establishment in the executive branch of the Federal
government, or any independent regulatory agency", OMB Circular A- 130, Section 6.

This review was conducted in three phases. Phase I, the assessment phase, was designed to
ensure the existence of documentation that supports OMB Circular A-1 30 criteria. A list of
documentation reviewed during this phase is included in Appendix B.

Phase I1 entailed verification of the accuracy of the statements made in the documentation
received in Phase I. This verification was accomplished through reviews of relevant
documentation and interviews with Corporation personnel.

Phase I11 consisted of the development of a formal report of the review's findings. As the
project team identified findings, they were discussed with the Corporation and the OIG.
These findings are documented in the form of Notices of Findings (NOF) and are issued to the
OIG and the Corporation as attachments to this report.

In addition, a Vulnerability and Penetration Assessment was performed on the Corporation's
external and internal networks. More specifically, we attempted to simulate a number of
security penetration scenarios, which included the following categories of potential system
"abusers":

       -   an "outsider" with no information about the organization's EDP environment

       -   an "outsider" with limited information about the organization's EDP environment

       -   an "insider" with limited knowledge about the EDP environment

       -   an "insider" with standard client application programmer access to the EDP
           environment resources.

Our procedures were performed in accordance with Government Auditing Standards for
performance audits as issued by the Comptroller General of the United States.




                                          Page 2
 ma
Summary of Notification of Findings

A total of two Notification of Findings (NOFs) were issued during the course of the project.
The table below contains a synopsis of the findings and the recommendations documented in
each NOF located in Appendix A.


    Finding                                         Recommendation

    A summary of Security Plans is not              Incorporate Information Security
    incorporated in the Corporation's Information   Planning into the Corporation's
    Management Strategic Plan dated October 19      overall Information Resource
    2000 as required by OMB Circular A- 130.        Management Planning.

    There is a formal Corporation policy (#375)     Perform a risk analysis for
    for use of the Internet that is signed by the   interconnection of the Corporation
    Chief Operating Officer, but there is no        LAN to the Internet, and obtain
    document that specifically gives management     specific formal management approval
    authorization for interconnection of the        and acceptance of the risks of
    Corporation LAN to the Internet as required     interconnection of the Corporation
    by OMB Circular A-130.                          LAN to the Internet.


New Information Security Legislation

Although, at the time of the assessment the Corporation generally met the criteria of OMB
Circular A-1 30, new information security legislation, the Government Information Security
Reform Act (GISRA), has been enacted that sets a much higher documentation standard than
had previously existed. The legislation includes requirements that will impose additional
types of workload burdens, such as annual evaluations. It is also anticipated that OMB
Circular A-130, which formed the basis for this review, will be greatly modified in the near
future to meet the GISRA requirements. An early start on meeting the new requirements is
highly recommended.

The Fiscal Year 2001 National Defense Authorization Act became Public Law 106-398 on
October 30,2000. Title X, Subtitle G of the Act is Government Information Security Reform
Act (GISRA). Even though it is part of the Defense Authorization Act, Subtitle G's
provisions affect all agencies of the Federal Government. It is effective as of November 30,
2000, and expires in two years. The legislation recognizes the highly networked nature of the
Federal computing environment and the need for Federal Government interoperability. It
seeks to establish a comprehensive framework for information security and to make it an
integral component of each agency's business operations.




                                          Page 3
New provisions of the legislation call for each agency to:
             Have an agency-wide information security architecture
      -      Have an information security plan for the life cycle of each agency system
      -      Perform an annual self evaluation of information security controls and
             techniques
      -      Have an annual audit of the Information Security evaluation by the IG
      -      Provide an annual report of the results of each evaluation and audit to OMB

Procedural guidance from OMB and National Institute of Standards and Technology (NIST)
may not come until early 2001. But, implementation of GISRA must proceed soon, to be
followed by a self-evaluation of the implementation, an audit of the evaluation by the IG and
a report by the agency head to OMB. All must be accomplished before the legislated deadline
of October 30,200 1.

A modified OMB Circular A-130 to implement GISRA will be forthcoming, and will likely
incorporate the Security Assessment Framework developed by the CIO Council and NIST.
The CIO - NIST Information Technology Security Assessment Framework seems to establish
a more stringent requirement for comprehensive documentation than currently exists.




    This report is intended solely for the information and use of the Office of the Inspector
    General, the management of the Corporation for National and Community Service, and the
    United States Congress and is not intended to be and should not be used by anyone other than
    these specified parties.




L   partner, &MG, LLP




                                             Page 4
                         Notification of Findings                            Appendix A

Notification of Finding: Missing summary of the Corporation Security Plans.

Condition:            The recently issued Information Management Strategic Plan, dated
                      October 2000, does not contain a summary of the Corporation security
                      plans. (See Binder C, WP #3 100, Page 2 of 10)


Criteria:             OMB Circular A-130 requires that "A summary of the security plans
                      shall be incorporated into the strategic IRM plan."


Cause:                Given the overall level of attention that has been paid to information
                      security, this appears to be an oversight, and not necessarily indicative
                      of a low resource allocation priority.


Effect:               The intent of the requirement is to ensure that Information Security is
                      considered during the agency's strategic resource planning and
                      prioritization process. Allocation of sufficient resources to ensure an
                      effective information security program may not otherwise occur.


Recommendation:       Information security should be routinely incorporated into the
                      Corporation's annual strategic resource allocation and prioritization
                      processes. This fiscal year, it is recommended that the Corporation use
                      the updated security plans being developed in conjunction with re-
                      accreditation of all Corporation systems, to provide the basis for
                      incorporation of information security into the overall Information
                      Management Strategic Plan dated October 2000. This should be more
                      than just a documentation change, and ought to be accomplished in
                      sufficient time to ensure that information security requirements are
                      appropriately considered during the next budget cycle.

Management Response:

This finding was discussed with Corporation Management on December 14,2000. The
Corporation did not express major disagreement but said that it intends to provide its formal
response on any issues related to the finding in its comments on the draft report.




                                         Page A-1
                                                                         Appendix A

                                Notification of Findings

Notification of Finding: Missing management authorization for the Internet connection
to the Corporation LAN.

Condition:          There is no separate, specific management authorization for the Internet
                    connection to the Corporation LAN. (See Binder C, WP #3 100, Page 5
                    of 10)


Criteria:           OMB Circular A- 130 requires that there be written management
                    authorization for interconnection to other systems.


Cause:              Corporation Policy Number 375 is signed by the Chief Operating
                    Officer and establishes rules for Internet and e-mail access control and
                    acceptable use. This formal policy statement indirectly indicates that
                    Corporation management approves in general of having the Internet
                    connection, but is not a clear statement that management understands
                    and accepts the risks inherent in the Internet connection. Acceptance of
                    responsibility for taking the business risks associated with interconnection
                    to the Internet should clearly be done by Corporation top management.


Effect:             The formal acceptance by management of the risks of any
                    interconnection to other systems is the intent of the OMB Circular A-
                    130 requirement. Connection to the Internet, particularly, has many
                    inherent risks. Without management understanding of the potential for
                    the loss of information assets or for harm to critical business processes,
                    inappropriate levels of business risk may be taken or insufficient
                    resource allocations made to ensure an effective security program.


Recommendation:      Although Corporation management has given a tacit approval of
                    connection to the Internet; a risk assessment for the interconnection of
                    the Corporation LAN with the Internet should be done. The risk
                    assessment need not be done from scratch. Valuable insight into the
                    extent and nature of the risks may be gained from the various audits
                    and evaluations of Corporation security that are underway. Once the
                    risk assessment is completed, it should be used in conjunction with the
                    updated LAN security plan as the basis for specific management
                    authorization of the Internet interconnection.


                                       Page A-2
                                                                         Appendix A


                                  Notification of Findings

Management Response:

This finding was discussed with Corporation Management on December 14,2000. The
Corporation did not express major disagreement but said that it intends to provide its formal
response on any issues related to the finding in its comments on the draft report.




                                         Page A-3
                    List of Documents Reviewed                        Appendix B

CNS Policy #375      Internet an E-mail Access and Acceptable Use   August 23, 1999
CNS Policy #376      Network and Computer Security                  November 7,2000
CNS Policy #377      Computer Property Management                   February 17,2000
CNS Policy #378      Structured System Development Life Cycle       April 27, 2000
                      Methodology
CNS Policy #400      Visitor Procedures for Computer Room 63 16     August 22,2000
CNS Policy #401      Procedural Guidelines for Disabled and         October 13, 2000
                      Locked Out Accounts
CNS Policy #402      Approving Authority Signatures                 August 24,2000
CNS Policy #50 1     Safeguarding Sensitive Information             September 2 1, 1999
                      and Documents
CNS Plan             Information Management Strategic Plan          October 19, 2000
CNS Plan             Network Computer Security Plan                 October 2000
CNS Plan             CNS-LAN Security Plan                          July 1997
CNS Plan             CNS-LAN Contingency Plan                       July 1997
CNS Plan             CNS Disaster Recovery Plan                     undated, 2000
CNS Report           CNS-LAN Security Controls Review Report        July 1997
CNS Report           CNS-LAN Risk Analysis Report                   July 1997
CNS Accreditation    Accreditation Package for CNS-LAN              August 15, 1997
CNS Procedure        Corporation Network Account Creation,          undated, 2000
                       Modification and Deletion Procedure
CNS Procedure        Corporation Windows NT Server                  undated, 2000
                       Standard Configuration
CNS Procedure        Corporation Standard Client Configuration      undated, 2000
CNS Procedure        Corporation Backup Schedule                    undated, 2000
CNS Procedure        Corporation Network Maintenance Schedule       undated, 2000
CNS Procedure        2000 Annual Information Systems Security       undated, 2000
                       Awareness Training document
CNS Procedure        CNS Computer Incident Response Guidelines      undated, 2000
CNS Procedure        Help Desk Frequently Asked Questions (FAQ)     undated, 2000
CNS Document         Segregation of Duties                          undated, 2000




                                          Page B-1
                                                                                   Appendix C
                                                                                 -----
                                                                                 CORPORATION

                                                                                 FOR h 4 T I O N A I .




March 30. 2001

The Honorable Luise Jordan,
Inspector General
Corporation for National and
  Con~munityService
Dear Ms. Jordan:

        The Corporation has reviewed the draft report Review of [he Corporation for Nutional and
Comn~unityService 's Network and Computer Secliriry PIon (OIG Audit Report 0 1-34, dated December
1 1, 2000). The purpose of KPMG's work was to review the Corporation's network security plan and
assess the effectiveness of computer sccurity policy and procedures. The procedures performed by
KPMG included sophisticated attempts to penetrate the Corporalion's systems as both an "outside"
hacker and an "insider." We note with satisfaction that KPMG failed to circumvent the Corporation's
security policies and procedures and that it was unsuccessful in its attempts to penetrate the
Corporation's systems.

        The Corporation is also pleased that, while not explicitly stated, KPMG concluded that the
Corporation's network security plan and computer security policy and procedures are effective and
efficient. The Corporation has taken the security of its computer resources very seriously and will
continue to do so. To this end, the Corporation routinely tests and monitors its systems and contracts
with independent EDP consultants to review and test its systems. We also rely on the testing and
review that was performed by KPMG on behalf of the Office of the Inspector General and discussed in
this report.

       The report cites two minor instances where KPMG feels that the Corporation could have better
documentation. In the first instance, KPMG recommends that a summary of the Corporation's
Security Plan be incorporated into the Corporation's Information Management Strategic Plan. While
we do not agree that this is necessary given the Corporation's EDP operating environment, the
Corporation will include a summary of the Security Plan in the Strategic Plan.

                                                                                       1201 New York Avenue. HW
                                                                                            Wash~nyon.DC 20521
                                                                                           Telephone 202.606-jm




                                              Page C-1
                                                                                      Appendix C




       For se\.eral years prior to senior management making this decision, the Office of Information
Technology (OIT)maintained two separate networks, one serviced the internal business needs and the
other was solely for Internet access. As technology changed, the need for easier access to the resources
available on the Internet grew. Once technology and monitoring tools became sophisticated enough to
enable acceptable protection from external threats, management included the necessary funding in the
OIT budget for firewall technology and systems monitoring tools to allow the interconnection to the
Internet. The initial risk assessment process culminated when the Chief Operating Officer signed the
Corporation's policy on e-rnail access controls and use of the Internet.

        Internet access has become an integral part of the Corporation's network and is regularly
assessed by both staff and independent EDP consultants for security vulnerabilities. For example, as
part of the recent re-accreditation of the Corporation's network, independent EDP consultants
performed a risk assessment of the entire network including the connection with the Internet. This
accreditation was also reviewed and approved by senior management. Thus, the Corporation believes
that to do additional risk assessments, beyond what has been and is regularly done, would be an
inefficient use of its resources.



        Finally, the Corporation would like to express its appreciation for the work of KPMG's staff
and their flexibility to work around the other pressing responsibilities of the Corporation staff.

                                              Sincerely,



                                              David Spevacek
                                              Chief Information Oficer

cc:     Wendy Zenker
        Bill Anderson




                                               Page C-2
